                                                                       X-IN-MOA-0014-2003
                                                                           (No. 2003-I-0005)
              United States Department of the Interior
                               Office of Inspector General
                                    Washington, D.C. 20240




                                                                           November 15, 2002


Mr. Harvey D. Thorp
Assistant Inspector General for Audits
Office of Inspector General
Office of Personnel Management
1900 E Street, N.W., Room 6400
Washington, D.C. 20415

Dear Mr. Thorp:

        Enclosed is the Agreed-Upon Procedures Report for the Department of the Interior on
“Retirement, Health Benefits, and Life Insurance Withholdings/Contributions And
Supplemental Semiannual Headcount.” This report is required by Appendix I of the Office of
Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial
Statements. The report was prepared by KPMG LLP under contract with the Department of
the Interior, Office of Inspector General. The contract required that the audit be performed in
accordance with United States generally accepted government auditing standards, OMB
Bulletin 01-02, and the General Accounting Office /President’s Council on Integrity and
Efficiency Financial Audit Manual.

       In connection with the contract, we reviewed KPMG’s report and related workpapers
and inquired of their representatives. KPMG is responsible for the report and for the
conclusions expressed in the report. However, our review disclosed no instances where
KPMG did not comply, in all material respects, with United States generally accepted
government auditing standards.

       If you have any questions concerning this matter, please contact me at (202) 208-5512
or Mr. Curtis Crider, Director of Financial Audits, at (202) 208-5724.

                                             Sincerely,



                                             Roger La Rouche
                                             Assistant Inspector General
                                               for Audits

Enclosure
                                                                                                       ENCLOSURE



           Suite 2700
           707 Seventeenth Street
           Denver, CO 80202




                                                              Independent Accountants’ Report on the
                                                              Application of Agreed-Upon Procedures


The Inspector General
U.S. Office of Personnel Management:

We have performed the procedures enumerated in exhibit I, which were agreed to by the Inspector General,
Chief Financia l Officer, and the Associate Director for Retirement and Insurance of the U.S. Office of
Personnel Management (OPM), solely to assist OPM in evaluating the reliability of the employee
withholdings and employer contributions reported on the United States Department of the Interior’s (the
Department) Reports of Withholdings and Contributions for Retirement, Health Benefits, and Life
Insurance for the payroll periods ended December 15, 2001; February 23, 2002, which coincides with the
March Semiannual Headcount Report; and June 1, 2002. The Department’s management is responsible for
reporting withholdings and contributions for retirement, health benefits, and life insurance, and for the
related semiannual headcount reporting.
This agreed-upon procedures engagement was conducted in accordance with the attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of these procedures
is solely the responsibility of the Inspector General, Chief Financial Officer, and the Associate Director for
Retirement and Insurance of OPM. Consequently, we make no representation regarding the sufficiency of
the procedures described in exhibit I, either for the purpose for which this report has been requested or for
any other purpose. The procedures we performed and the associated findings are presented in exhibit I.
We were not engaged to, and did not, conduct an examination, the objective of which would be the
expression of an opinion on the employee withholdings and employer contributions reported in the
Department’s Reports of Withholdings and Contributions for Retirement, Health Benefits, and Life
Insurance, and the March Semiannual Headcount Report. Accordingly, we do not express such an opinion.
Had we performed additional procedures, other matters might have come to our attention that would have
been reported to you.
This report is intended solely for the use of the Inspector General, Chief Financial Officer, and the
Associate Director for Retirement and Insurance of OPM and should not be used by those who have not
agreed to the procedures and taken responsibility for the sufficiency of the procedures for their purposes.




October 25, 2002

cc:    Chief Financial Officer, OPM
       Associate Director for Retirement and Insurance, OPM


           KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
           a member of KPMG International, a Swiss association.
                                                                                                           Exhibit I
                           Attachment to the Independent Accountants’ Report on the
                                       Application of Agreed-Upon Procedures
                         Submitted to the United States Office of Personnel Management
                                for the United States Department of the Interior


Procedures and Findings
1. We obtained the United States Department of the Interior’s (the Department) Semiannual Headcount Report
   as of February 23, 2002 submitted to the United States Office of Personnel Management (OPM), and a
   summary of Retirement and Insurance Transfer System (RITS) submissions for the fiscal year ended
   September 30, 2002. We judgmentally selected the following three RITS submissions from the summary of
   RITS submissions, calculated the total of the amounts as reported on the RITS submissions and compared the
   results of the calculated amounts to the corresponding amounts reported on the RITS submissions.

          Payroll              Payroll
          period               period
          number               ended                                     Bureaus selected1

          200126            December 15,         Bureau of Indian Affairs, Minerals Management Service, Office of
                            2001                 Surface Mining, Reclamation and Law Enforcement
          200205            February 23,         National Parks Service, United States Geological Survey, Bureau
                            2002 2               of Land Management
          200212            June 1, 2002         Bureau of Reclamation, Fish and Wildlife Service, Office of the
                                                 Secretary of the Interior, Office of Special Trustee for American
                                                 Indians, Office of Inspector General, Office of Aircraft Services

      Finding: We found such amounts to be in agreement.
2. We obtained the Federal Personnel/Payroll System (FPPS) Payroll Summary Reports associated with the
   three RITS submissions and bureaus noted above, calculated the total of the amounts on the Payroll
   Summary Reports, and compared the results of the calculated amounts to the corresponding amounts
   reported on the Payroll Summary Reports.

      Finding: We found such amounts to be in agreement.
3. We compared the employee withholding information shown on the Payroll Summary Reports for retirement,
   health benefits, and life insurance (as adjusted for reconciling items) to the related amounts shown on the
   RITS submissions for the bureaus and payroll periods noted above. We obtained explanations from
   management for those differences above 1% of the total amounts reported for retirement, health benefits, and
   life insurance.

      Finding: We identified differences over the 1% threshold between the RITS submissions and the Payroll
      Summary Reports for the three payroll periods and bureaus noted above, and obtained explanations from the
      National Business Center (NBC) regarding the reasons for the differences, presented in schedule A. We were

1
    The Department does not submit one RITS submission but instead submits one for each bureau or office each payroll
    period.
2
    This RITS submission coincides with the March Semiannual Headcount Report.


                                                            2                                             (Continued)
    told that the differences noted relate to military service employees who are withdrawing a portion of their
    retirement and repaying it at a later date. No additional procedures were performed with respect to the
    validity of the reconciling items on the Payroll Summary Reports. In addition, no additional procedures were
    performed with respect to management’s representations as to the reasons for the differences.
4. We randomly selected 25 employees from the Payroll Summary Reports for each of the RITS submissions
   selected above (hereinafter referred to as schedule B) that met all the following criteria:

   •   Covered by the Civil Service Retirement System (CSRS) or the Federal Employees Retirement System
       (FERS);
   •   Enrolled in the Federal Employees Health Benefits Program;
   •   Covered by basic life insurance; and
   •   Covered by at least one Federal Employees Group Life Insurance (FEGLI) optional coverage (Option A,
       B, or C).

5. We obtained, for each of the employees listed in schedule B, certified copies of the follow ing documents
   from the Official Personnel File (OPF):

   •   All Notifications of Personnel Actions (SF-50) covering the pay periods in the RITS submissions chosen;
   •   The Health Benefit Registration Form (SF-2809) covering the pay periods in the RITS submissions
       chosen (note: a new SF-2809 is only needed if an employee is changing health benefit plans; therefore,
       the form could be several years old); and
   •   The Life Insurance Election Form (SF-2817) covering the pay periods in the RITS submission chosen
       (note: a new SF-2817 is only needed if an employee is changing life insurance coverage; therefore, the
       form could be several years old).
6. We obtained a report from Employee Express for individuals noted in schedule B that used Employee
   Express during one of the three pay periods selected for any health benefit transactions in that system. We
   compared the date of the transactions with the date on the certified copy of the SF-2809 requested in step 5,
   and confirmed that the health benefit information used in step 10 covered the pay periods in the RITS
   submissions chosen.
   Finding: No exceptions were found as a result of applying the procedure. No additional procedures were
   performed with respect to the validity of the health benefit transactions obtained from the Employee Express
   report.
7. For each of the employees selected in schedule B, we compared the base salary used for payroll purposes
   (upon which withholdings and contributions are based) from the employee Leave and Earnings Statement to
   the base salary reflected on the employees’ respective SF-50.

    Finding: We found such information to be in agreement.
8. For each of the employees selected in schedule B, we compared the retirement plan code used for payroll
   purposes, as noted on the employee Leave and Earnings Statement, to the SF-50.

    Finding: We found such information to be in agreement.
9. For each of the employees selected in schedule B, we computed employee withholdings and the
   Department’s contributions by multiplying the base salary (obtained from the employees’ SF-50) by the
   official withholding and contribution rates, which were obtained from the enabling legislation. We compared
   the calculated withholding and contribution amounts to the actual amounts on the employee Leave and
   Earning Statements.

                                                        3                                            (Continued)
   Finding: We found such amounts to be in agreement.
10. For each of the employees selected in schedule B, we compared the health benefit rates for employee
    withholdings and the Department’s contributions from the employee Leave and Earnings Statement to the
    official subscription rates issued by OPM for the plan and option elected by each of the employees, as
    documented by a Health Benefit Registration Form (SF-2809) in the employees’ OPF.

    Finding: We found such information to be in agreement.
11. For each of the employees selected in schedule B, we inspected the Life Insurance Election Form (SF-2817)
    obtained from the employees’ OPFs for basic life insurance election, and noted that each of the employees
    elected basic life insurance.

    Finding: No exceptions were found as a result of applying the procedure.
12. For each of the employees selected in schedule B, we computed the withholding and contribution amounts
    for basic life insurance, as follows, and compared the calculated amounts to the actual amounts withheld and
    contributed from the employee Leave and Earnings Statement.
    a. For employee withholdings : We rounded the employee’s annual base salary to the nearest thousand
       dollars and added $2,000. Then, we divided this total by $1,000 and multiplied it by $0.155 (for Agency
       Personnel Office (APO) with biweekly pay periods) or $0.3358 (for APOs with monthly pay periods).

    b. For agency contributions : We divided the employee withholdings calculated in step 12.a. by two.

    Finding: We found such amounts to be in agreement.

13. For each of the employees selected in schedule B, we inspected the SF-2817 form obtained from the
    employees’ OPF and verified that optional coverage was elected. We computed the optional coverage
    withholdings and contributions and compared our calculated totals to the withholdings and contributions on
    the employee Leave and Earnings Statement, as follows, based upon the options selected by each employee:
    a. For Option A: We determined the employee’s age group using the age groups provided for Option A in
       the FEGLI Program Booklet. The withholding amount used is based on the rate listed in the FEGLI
       Program Booklet for that age group.
    b. For Option B: We inspected the SF-2817 to determine the number of multiples chosen for Option B and
       determined the employee’s age group using the age groups provided for Option B in the FEGLI Program
       Booklet. We rounded the employee’s annual rate of basic pay up to the next $1,000, divided it by $1,000,
       and multiplied it by the rate for the respective age group. We computed the amount withheld by
       multiplying the above calculated amount by the number of multiples chosen.
    c. For Option C: We inspected the SF-2817 to determine the number of multiples chosen for Option C and
       determined the employee’s age group using the age groups provided for Option C in the FEGLI Program
       Booklet. We computed the amount withheld by multiplying the rate for the age group by the number of
       multiples chosen.

    Finding: We found such amounts to be in agreement.
14. We randomly selected ten employees from the Payroll Summary Reports who had no health benefit
    withholdings, noted in schedule C. For each of the ten employees selected, we obtained form SF- 2809 from
    the OPFs and inspected the form, noting that there was no health benefit coverage election.
   Finding: No exceptions were found as a result of applying the procedure.



                                                       4                                             (Continued)
15. We randomly selected ten employees from the Payroll Summary Reports who had no life insurance
    withholdings, noted in schedule D. For each of the ten employees selected, we obtained form SF-2817 from
    the OPFs and inspected the form, noting that the employee waived or cancelled basic life insurance coverage.
   Finding: No exceptions were found as a result of applying the procedure.

16. We calculated the headcount by obtaining the number of employees from the Payroll Summary Reports as of
    February 23, 2002 for all Department bureaus. We compared our calculated headcount with the headcount
    from the March Semiannual Headcount Report, and identified any differences greater than 2% between the
    headcount reporting on the bureau’s Semiannual Headcount Reports and the Payroll Summary Reports.

    Finding: All differences greater than 2% of the headcount reflected on the March Semiannual Headcount
    Report are reported in schedule E. We were told that the differences noted relate to adjustments for
    employees who enrolled in the benefits listed in schedule E, but were not paid during the pay period that
    coincided with the Semiannual Headcount Report. No additional procedures were performed with respect to
    the validity of queries provided by the NBC. In addition, no additional procedures were performed with
    respect to management’s representations as to the reasons for the differences.
17. We calculated retirement employee withholdings and employer contributions for the three payroll periods
    noted above, by multiplying the CSRS and FERS payroll base obtained from the FPPS payroll queries
    provided by the NBC, by the withholding and employer contribution rates required by law. We compared the
    calculated totals to the amounts shown on the RITS submissions and identified any variances between the
    calculated totals and the amounts reported on the RITS submissions greater than 5% of the amounts reported
    on the RITS submissions.

   Finding: All variances noted were less than 5% of the amounts reported on the RITS submissions. No
   additional procedures were performed with respect to the validity of the queries provided by the NBC.
18. We calculated the health benefit employee withholdings and employer contributions for the three payroll
    periods noted above, by multiplying the number of employees enrolled in each health benefit plan and plan
    option from the RITS submissions by the employee withholdings and employer contributions for the plan
    and option from the FPPS payroll queries provided by the NBC. We compared the calculated amounts to the
    health benefit withholding and contribution amounts shown on the RITS submissions and identified any
    variances between the calculated totals and the amounts reported on the RITS submissions greater than 5%
    of the amounts reported on the RITS submissions.
   Finding: All variances between the calculated amounts and the amounts reported on the RITS submissions
   greater than 5% are reported in schedule F. We were told that the variances noted relate to the following:

   a. 12 months of deductions are taken in 9 months for contract educators.

   b. One-time pay adjustments.

   No additional procedures were performed with respect to the validity of the queries provided by the NBC. In
   addition, no additional procedures were performed with respect to management’s representation as to the
   reasons for the variances.
19. We calculated the basic life insurance employee withholdings for the three payroll periods noted above, by
    obtaining payroll system queries from the NBC to determine the total number of employees with basic life
    insurance program coverage and the aggregate annual basic pay for all employees with basic life insurance
    program coverage. For employee withholdings, we added the product of 2,000 times the number of
    employees with basic life insurance coverage to the aggregate annual basic pay for all employees selected.
    We divided this total by $1,000 and multiplied by $0.155 (for APOs with biweekly pay periods) or $0.3358
    (for APOs with monthly pay periods). We compared these results to withholding amounts for basic life

                                                       5                                            (Continued)
    insurance coverage reported on the RITS submissions, and identified any variances between the calculated
    totals and the amounts reported on the RITS submissions greater than 5% of the amounts reported on the
    RITS submissions.
    Finding: All variances noted were less than 5% of the amounts reported on the RITS submissions. No
    additional procedures were performed with respect to the validity of the payroll system queries provided by
    the NBC.
20. We calculated the basic life insurance employer contributions for the three payroll periods noted above, by
    obtaining payroll system queries from the NBC to determine the total number of employees with basic life
    insurance program coverage and the aggregate annual basic pay for all employees with basic life insurance
    program coverage, and dividing the results of the employee withholdings calculated in step 19 by two. We
    compared these results to the amounts reported on the RITS submissions and identified any variances
    between calculated totals and the amounts reported on the RITS submissions greater than 5% of the amounts
    reported on the RITS submissions.
    Finding: All variances noted were less than 5% of the amounts reported on the RITS submissions. No
    additional procedures were performed with respect to the validity of the payroll systems queries provided by
    the NBC.
21. We obtained a payroll system query from the NBC that summarized the number of employees, by age group,
    who elected Options A, B, and C during the payroll periods noted above. We calculated Option A, Option B,
    and Option C of the life insurance coverage withholdings for the three payroll periods noted above using the
    Payroll Summary Reports obtained from NBC by multiplying the number of employees in each age group by
    the appropriate rate for Option A, in accordance with the rates for age groups provided in the FEGLI
    Program Booklet. We compared these results to the amounts reported on the RITS submissions, and
    identified any differences between the calculated totals and the amounts reported on the RITS submissio ns
    greater than 2% of the amounts reported on the RITS submissions.
   Finding: All differences between the calculated amounts and the amounts reported on the RITS submissions
   greater than 2% are reported in schedule G. We were told that the differences noted relate to the following:

   a. 12 months of deductions are taken in 9 months for contract educators.

   b. NBC queries only include base pay but actual deductions include premium pay for investigators.
   No additional procedures were performed with respect to the validity of the payroll system queries provided
   by the NBC. In addition, no additional procedures were performed with respect to management’s
   representation as to the reasons for the differences.
22. We obtained a payroll system query from the NBC that summarized Option B and Option C insurance. We
    divided the reports for Option B and Option C insurance into the age groups shown in the FEGLI Program
    Booklet. For Option B, we rounded the employee’s annual rate of basic pay up to the next $1,000, divided by
    $1,000, multiplied by the rate for the age group, and multiplied this total by the number of multiples. For
    Option C, we multiplied the rate for the age group by the number of multiples chosen for each employee,
    compared these results to the amounts reported on the RITS submissions for Options B and/or C, and
    identified any differences between the calculated totals and the amounts reported on the RITS submissions
    for Options B and/or C greater than 2% of the amounts reported on the RITS submissions for Options B
    and/or C.




                                                        6                                            (Continued)
Finding: All differences between the calculated amounts and the amounts reported on the RITS submissions
for Options B and/or C greater than 2% are reported in schedules H and I. We were told that the differences
noted relate to the following:

a. NBC queries only include base pay but actual deductions include premium pay for investigators.

b. 12 months of deductions are taken in 9 months for contract educators.

c. One-time pay adjustments.

No additional procedures were performed with respect to the validity of the payroll system queries provided
by the NBC. In addition, no additional procedures were performed with respect to management’s
representation to the reasons for the differences.




                                                   7
                                                                                                                                  Schedule A
                                               UNITED STATES DEPARTMENT OF THE INTERIOR
                                             RITS Submissions to Payroll Summary Reports Reconciliation
                                    Payroll periods ended December 15, 2001, February 23, 2002, and June 1, 2002


                                                                                                Amount per
                                                                                                  payroll
                                                            Employee           Amount per        summary                          Percent
Payroll period              Bureau or office                line item            RITS             report           Difference    difference
    200126         Bureau of Indian Affairs              Military Service $          2,866.72       1,626.62          1,240.10        76.24%
    200205         National Parks Service                Military Service           17,778.56       6,218.11         11,560.45       185.92%
    200205         United States Geological Survey       Military Service           26,823.00       1,959.53         24,863.47     1,268.85%
    200205         Bureau of Land Management             Military Service            2,451.53       2,120.42            331.11        15.62%
    200212         Bureau of Reclamation                 Military Service            9,285.37       4,029.11          5,256.26       130.46%


See independent accountants’ report on the application of agreed-upon procedures.




                                                                           8
                                                                                               Schedule B
                         UNITED STATES DEPARTMENT OF THE INTERIOR
                       Employees With Retirement, Health Insurance, and Life Insurance


                                                                               Last four
                                                                                digits of
                                                                             social security
 Sample item                              Bureau                                number         SPO
        1          National Parks Service                                           9835        HF
        2          Bureau of Reclamation                                            8792        MP
        3          National Parks Service                                           1237        SE
        4          Office of Inspector General                                      7889        IG
        5          Bureau of Indian Affairs                                         7451        ED
        6          National Parks Service                                           4809        LM
        7          United States Geological Survey                                  9756        HQ
        8          Bureau of Land Management                                        9415        UT
        9          National Parks Service                                           3315        GI
       10          National Parks Service                                           9219        AK
       11          National Parks Service                                           6167        MC
       12          Bureau of Reclamation                                            2168        GP
       13          Bureau of Land Management                                        8662        ID
       14          National Parks Service                                           9382        PN
       15          Bureau of Land Management                                        6018        AZ
       16          National Parks Service                                           1467        SE
       17          Fish and Wildlife Service                                        8440        OR
       18          National Parks Service                                           3630        NA
       19          Fish and Wildlife Service                                        7673        CO
       20          National Parks Service                                           1598        SW
       21          Bureau of Land Management                                        3711        ID
       22          National Parks Service                                           1464        YO
       23          Fish and Wildlife Service                                        6251        NM
       24          Bureau of Land Management                                        9655        UT
       25          National Parks Service                                           3367        AC


See independent accountants’ report on the application of agreed-upon procedures.




                                                       9
                                                                                               Schedule C
                         UNITED STATES DEPARTMENT OF THE INTERIOR
                                     Employees With No Health Insurance


                                                                               Last four
                                                                                digits of
                                                                             social security
 Sample item                              Bureau                                number         SPO
       1           Bureau of Indian Affairs                                         1149        HU
       2           Bureau of Indian Affairs                                         0450        ED
       3           Bureau of Indian Affairs                                         9427        ED
       4           Office of the Secretary of the Interior                          0044        OS
       5           Bureau of Indian Affairs                                         8491        ED
       6           Office of Surface Mining, Reclamation,
                      and Law Enforcement                                           5847        JS
        7          National Parks Service                                           7567        CC
        8          Bureau of Indian Affairs                                         7059        ED
        9          National Parks Service                                           6256        SE
       10          National Parks Service                                           4300        AP


See independent accountants’ report on the application of agreed-upon procedures.




                                                      10
                                                                                               Schedule D
                         UNITED STATES DEPARTMENT OF THE INTERIOR
                                      Employees With No Life Insurance


                                                                               Last four
                                                                                digits of
                                                                             social security
 Sample item                              Bureau                                number         SPO
        1          United States Geological Survey                                  8839        ER
        2          Bureau of Land Management                                        3492        AA
        3          United States Geological Survey                                  0408        MC
        4          United States Geological Survey                                  0070        LC
        5          United States Geological Survey                                  4674        LC
        6          Bureau of Land Management                                        8747        MT
        7          United States Geological Survey                                  3238        MC
        8          Bureau of Land Management                                        5658        AA
        9          United States Geological Survey                                  8950        MC
       10          Bureau of Reclamation                                            7089        MP


See independent accountants’ report on the application of agreed-upon procedures.




                                                      11
                                                                                                                                Schedule E
                                             UNITED STATES DEPARTMENT OF THE INTERIOR
                 Differences in Number of Employees Exceeding 2% – Semiannual Headcount Report Versus Payroll Summary Report


                                                                                           Number of         Number of
                                                                                           employees         employees
                                                                                          enrolled per      enrolled per
                                                                                          semiannual          payroll
                                                            Payroll            Benefit     headcount         summary            Percent
                  Bureau or office                          period             category      report           report           difference
Bureau of Indian Affairs                                    200126                  HB           2,049             2,096              2.19%
Office of the Secretary of the Interior                     200212                  LIB         16,824            17,160            (2.29)%
Office of the Secretary of the Interior                     200212                  HB             257               249            (2.20)%
Office of Inspector General                                 200212                  RT           5,619             5,496              3.11%


See independent accountants’ report on the application of agreed-upon procedures.




                                                                          12
                                                                                                               Schedule F
                                  UNITED STATES DEPARTMENT OF THE INTERIOR
            Variances Exceeding 5% – Health Benefit Contributions – Calculated Amount versus RITS Submission


                                                          Payroll         Enrollment      Percent         Explanation
                 Bureau or office                         period             code         variance        (see report)
Bureau of Indian Affairs                                  200126             101              (8.05)%            a
Bureau of Indian Affairs                                  200126             102              (5.82)%            a
Bureau of Indian Affairs                                  200126             104              (5.35)%            a
Bureau of Indian Affairs                                  200126             315              (7.20)%            a
Bureau of Indian Affairs                                  200126             321            (13.30)%             a
Bureau of Indian Affairs                                  200126             322            (27.32)%             a
Bureau of Indian Affairs                                  200126             451              (5.75)%            a
Bureau of Indian Affairs                                  200126             454              (5.69)%            a
Bureau of Indian Affairs                                  200126             471              (5.71)%            a
Bureau of Indian Affairs                                  200126             571              (7.46)%            a
Bureau of Indian Affairs                                  200126             572              (9.79)%            a
Bureau of Indian Affairs                                  200126             574            (17.27)%             a
Bureau of Indian Affairs                                  200126             575            (13.04)%             a
Bureau of Indian Affairs                                  200126             621              (9.25)%            a
Bureau of Indian Affairs                                  200126             622            (10.61)%             a
Bureau of Indian Affairs                                  200126             2X1            (57.69)%             a
Bureau of Indian Affairs                                  200126             2X2              (8.33)%            a
Bureau of Indian Affairs                                  200126             7K1           (233.34)%             a
Bureau of Indian Affairs                                  200126             7Z1            (20.00)%             b
Bureau of Indian Affairs                                  200126             7Z2              (6.98)%            a
Bureau of Indian Affairs                                  200126             9T1            (15.38)%             a
Bureau of Indian Affairs                                  200126             9T2            (15.38)%             a
Bureau of Indian Affairs                                  200126             A71              (5.14)%            a
Bureau of Indian Affairs                                  200126             CM2              (8.33)%            a
Bureau of Indian Affairs                                  200126             CY2              (8.12)%            a
Bureau of Indian Affairs                                  200126             LB1              (5.71)%            a
Bureau of Indian Affairs                                  200126             M51              (9.41)%            a
Bureau of Indian Affairs                                  200126             M52              (6.78)%            a
Bureau of Indian Affairs                                  200126             P21              (7.87)%            a
Bureau of Indian Affairs                                  200126             RU1            (10.64)%             a
Bureau of Indian Affairs                                  200126             VR1            (47.06)%             b
Bureau of Indian Affairs                                  200126             VR2             133.33%             b
Minerals Management Service                               200126             JN5            (73.33)%             b
National Parks Service                                    200205             622              22.22%             b
National Parks Service                                    200205             364              12.50%             b
National Parks Service                                    200205             2U1              27.87%             b
National Parks Service                                    200205             5W1            (11.11)%             b
National Parks Service                                    200205             CY2              (5.26)%            b
National Parks Service                                    200205             E51           (105.56)%             b
United States Geological Survey                           200205             GF1           (134.71)%             b
Bureau of Land Management                                 200205             101           (102.11)%             b
Bureau of Land Management                                 200205             6F2            (92.31)%             b
Bureau of Land Management                                 200205             XJ4            (25.00)%             b
Fish and Wildlife Service                                 200212             A32            (18.64)%             b
Fish and Wildlife Service                                 200212              J61            123.82%             b
Fish and Wildlife Service                                 200212             MM2            (11.02)%             b
Bureau of Reclamation                                     200212             454            (22.34)%             b
Bureau of Reclamation                                     200212             471           (146.31)%             b
Office of the Secretary of the Interior                   200212             JN2            (13.86)%             b


See independent accountants’ report on the application of agreed-upon procedures.



                                                               13
                                                                                                Schedule G
                         UNITED STATES DEPARTMENT OF THE INTERIOR
      Variances Exceeding 2% – Option A Life Insurance – Calculated Amount Versus RITS Submission


                                                           Payroll            Percent         Explanation
                 Bureau or office                          period            difference       (see report)
Bureau of Indian Affairs                                   200126                     4.79%        a
Office of Inspector General                                200212                   (6.93)%        b


See independent accountants’ report on the application of agreed-upon procedures.




                                                      14
                                                                                              Schedule H
                         UNITED STATES DEPARTMENT OF THE INTERIOR
      Variances Exceeding 2% – Option B Life Insurance – Calculated Amount Versus RITS Submission


                                                           Payroll            Percent       Explanation
                 Bureau or office                          period            difference     (see report)
Office of Inspector General                                200212                   5.19%        a


See independent accountants’ report on the application of agreed-upon procedures.




                                                      15
                                                                                                 Schedule I
                         UNITED STATES DEPARTMENT OF THE INTERIOR
      Variances Exceeding 2% – Option C Life Insurance – Calculated Amount Versus RITS Submission


                                                           Payroll            Percent         Explanation
                 Bureau or office                          period            difference       (see report)
Bureau of Indian Affairs                                   200126                   (4.94)%        b
Office of Surface Mining, Reclamation                      200126                   (3.04)%        c
   and Law Enforcement


See independent accountants’ report on the application of agreed-upon procedures.




                                                      16
